<html>
<title> - THE TRANSITION ASSISTANCE PROGRAM AND DISABLED TRANSITION ASSISTANCE PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                     THE TRANSITION ASSISTANCE PROGRAM 
                    AND DISABLED TRANSITION ASSISTANCE 
                                PROGRAM
=============================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           VETERANS' AFFAIRS

                        HOUSE OF REPRESENTATIVES

                             SUBCOMMITTEE ON
                          ECONOMIC OPPORTUNITY

                       ONE HUNDRED NINTH CONGRESS


                              first session

                                 -------

                              June 20, 2005

                                 -------

                            Serial No. 109-17



                    U.S. GOVERNMENT PRINTING OFFICE
22-696                      WASHINGTON : 2005
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001

<PAGES NOT AVAILABLE IN TEXT FORMAT>




OVERSIGHT HEARING ON THE TRANSITION 
ASSISTANCE PROGRAM AND DISABLED 
TRANSITION ASSISTANCE PROGRAM

Wednesday, June 29, 2005

U.S. House of Representatives,     
Subcommittee on Economic Opportunity,
Committee on Veterans' Affairs,
Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:10 p.m., in Room 334, Cannon House Office Building, Hon. John Boozman,  [Chairman of the Subcommittee] presiding.

    Present:  Representatives Boozman, Brown-Waite, and Herseth.
 
    Mr. Boozman. The meeting will come to order.  I want to apologize.  We are doing our appropriations bill, and probably 25 or 30 minutes ago, they called me and said we were going to have votes within five minutes.  I thought, that's great.  I'll run over and vote and get that done before we start.
    The House has rules.  The rule is such that basically anybody that shows up with an amendment can do it. They appear to keep showing up when they are not supposed to.
    I think what we would like to do is go ahead.  Ms. Herseth is on the way.  I'm going to go ahead and do my opening statement, and then we will kind of go from there.
    Again, we expect to vote at any second.  As you all know, that's just something we have to deal with.
    I wish I had the authority to call over and tell the leadership that we are busy over here, not to vote until we get done, but I'm not in that situation.
    Today, we are here to receive testimony on the veterans' transition assistance and disabled transition assistant programs, usually referred to as TAP and DTAP.
    TAP and DTAP are designed to smooth the transition of servicemembers back to civilian life.  I believe this is an absolutely vital program, especially in light of the conflict in the Middle East.
    It's probably fair to say that despite all the modern media that servicemembers are exposed to, military life is somewhat isolated from mainstream society.
    That is not a criticism on my part.  Rather, it is important to recognize that, whether a servicemember is leaving after initial enlistment or a career, they will face a society much different from the military.  Working relationships are different, pay and benefit systems are different, there is no mutual bond of duty and sacrifice.
    Therefore, it is not unreasonable that we ask commanding officers to make servicemembers available for three or four days out of an enlistment or a career to begin the transition process.
    Along those lines, I want to state my strong opposition to the draft MOU being circulated that would limit TAP/DTAP to two days.
    I've seen the TAP/DTAP curriculum, and I don't think there is any way a TAP staff can present that amount of information in two days and expect it to be retained by the participants.  Even the four day version I observed at Navy Norfolk was rapid fire, and if you didn't pay attention, you would miss some valuable information.
    By the way, I want to say Bravo Zulu to the TAP staff in Norfolk.  They put about 10,000 departing servicemembers through TAP every year and of those 10,000, approximately one-third avail themselves of the benefits delivery at discharge or BDD program.  If any base wants to see how it is done right, go to Norfolk.
    I have a special concern about how we are de-mobilizing members of the Guard and Reserves.  I know some units schedule a post-mobilization drill period to present TAP sessions.  This sounds like a good approach, and I hope that best practice can be applied nationally.
    Until now, we have only looked at transition as the process of leaving the military.
    As far as the Guard and Reserves are concerned, transition should also be used to describe the process of being called up to active duty.  That process is a transition potentially more stressful, given that a high percentage of the Guard and Reserves are small business owners who risk losing their businesses.
    I strongly believe that some pre-deployment drill periods should include instruction from organizations like the Small Business Development Centers on how to plan for mobilization, and I look forward to hearing from our witnesses on how such things can be put in place.
    Finally, GAO notes plans to improve TAP for the Guard and Reserves and that additional resources may be needed. Fortunately, the agencies here today represent most or all of the members of the TAP Steering Committee which is chaired by the Department of Labor.
    I would appreciate it if the Steering Committee would provide the Subcommittee with a report within 60 days regarding the types of services and training you intend to provide, new partnerships required, if any, the time line for implementation, and if additional resources are required, and how each department intends to meet that need.
    I know our Ranking Member is very interested in this also, Ms. Herseth, so whatever remarks you would care to make.
    Ms. Herseth. Thank you, Mr. Chair.  I'll be brief.
    Good afternoon to all of you and thank you for being at the hearing today.  I want to thank the Chairman for holding today's hearing on such an important and timely subject.  I thank the witnesses for being here today and look forward to your testimony.
    The transition assistance and disabled transition assistance programs are very important tools in assisting our military servicemembers to adjust to civilian life and employment.
    I am interested today in examining the witnesses' views on the overall effectiveness of TAP/DTAP and how we can work together to promote and improve these services.
    Particularly, I'm concerned with members of the Guard and Reserve, many of whom come from rural areas, as to how they fit into the transition process.
    Finally, with respect to the increasingly high number of wounded servicemembers from Iraq and Afghanistan -- the VA just yesterday admitted that the number of wounded is over 100,000 -- how is DTAP operating to assist in their rehabilitation, both physically and vocationally?
    Mr. Chairman, once again thank you for your commitment to and bipartisan leadership on this important issue.  I look forward to working with you, the agencies, and military service branches in implementing and improving transition services for our men and women in uniform.
    Thank you.
   Mr. Boozman. Thank you.  They have informed us that the votes perhaps are going to be a while.  I say that, now they will ring the bell.  That's probably jinxed us. Let's go ahead and get started.
    Let's have our first panel, Major General Ronald Young, Director of the National Guard Bureau Joint Staff.  Mr. Craig Duehring, Principal Deputy Assistant Secretary of Defense for  Reserve Affairs, Department of Defense.  Ms. Judith Caden, Director, Vocational Rehabilitation and Employment Service, Veterans' Benefits Administration, and Mr. John McWilliam, Deputy Assistant Secretary for Operations and Management, Veterans' Employment and Training Service, Department of Labor.
    Let's begin with you, General.

STATEMENTS OF RONALD YOUNG, DIRECTOR OF THE 
    NATIONAL GUARD BUREAU JOINT STAFF; ACCOMPANIED
    BY CRAIG DUEHRING, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY OF DEFENSE FOR RESERVE AFFAIRS, DE-
    PARTMENT OF DEFENSE; JUDITH CADEN, DIRECTOR, 
    VOCATIONAL REHABILITATION AND EMPLOYMENT 
    SERVICE, VETERANS' BENEFITS ADMINISTRATION; AND
    JOHN McWILLIAM, DEPUTY ASSISTANT SECRETARY FOR
    OPERATIONS AND MANAGEMENT, VETERANS' EMPLOY  -
    MENT AND TRAINING SERVICE, DEPARTMENT OF LABOR

STATEMENT OF RONALD YOUNG

    General Young. Chairman Boozman, distinguished members of the committee, thank you very much for this opportunity to speak with you today about these very important programs.
    The transition assistance program and disabled transition assistance program are critically important components of our efforts to take care of soldiers and their families.
    The information received during these briefings has long lasting effects on our men and women in uniform, their families, and their communities.
    The effectiveness of TAP and DTAP also holds significant implications for the long term health of our organizations as a whole, and specifically I'm talking about retention and recruiting.
    As the recent GAO report noted, TAP and DTAP have not been completely effective.  The recommendations included in this GAO report hold long lasting and important implications for Guard soldiers and their families across the nation.
    The National Guard supports the initiatives planned or currently underway to improve the effectiveness of TAP and DTAP as outlined in the GAO report.  Changes in the presentation of TAP materials, the level of emphasis placed on briefings and other initiatives noted in the report will put us on the road to success in this vital area.
    As noted in the GAO report, several pilot programs are underway that offer greater flexibility and creativity in the administration of these programs.
    The National Guard Bureau has taken the initiative to sign memorandums of understanding with several of the veterans' service organizations around the country.  We signed two such MOU's back in March with the VFW, Veterans of Foreign Wars, and with AMVETS.
    Later in July, we are going to be signing a MOU with the Disabled American Veterans.  On May 18th of this year, Lieutenant General Blum, the Chief of the National Guard Bureau, entered a partnership and signed a memorandum of agreement with the Department of Veterans' Affairs.
    That agreement between the two agencies established mutually agreed to requirements, expectations, and obligations in regard to the assistance and services that would be provided to our members.
    As part of that memorandum of agreement, the National Guard Bureau has put and is in the process of establishing state benefit advisors in all of the 54 states, territories, and the District of Columbia.
    Those state benefit advisors will be at the Joint Force headquarters in each state, and will be able to track and provide assistance to the servicemembers and their families, and to provide assistance to the Adjutant General and other local agencies as we track our soldiers and make sure they are getting the proper care and treatment.
    In addition to these programs, I believe that the servicemembers should receive their transition assistance program briefings and other materials at home station, versus at the de-mobilization sites.
    As you know and as the GAO report stipulated, the de-mobilization sites number about 27 across the country.  The fact that they are located at sites away from the home station where the spouse and the family members are located, there is a disadvantage there to the servicemember as they go through these briefings and try to make decisions that quite honestly the family and the spouse and the soldier or the servicemember should be making together.
    New Hampshire is a model state for us.  They instituted a program that's called reunion and re-entry program.  It was a program where they worked with the Department of the Army, and were allowed to keep their soldiers coming back from the theater, over 800, on five days of additional active duty when they came back from the de-mob site.
    They conducted a program broken into three groups, three blocks.  They put soldiers in one block that dealt with administrative details, financial details, all those types of things, to reintegrate them into the Reserve component, back in the National Guard, and back in the civilian community.
    The second day a group spent at a VA hospital and actually went through a whole day of briefings with the family and the servicemember to explain all their benefits and entitlements of now being a veteran.
    The third day they spent with the chaplains and received counseling such as suicide prevention, marriage enrichment, those types of programs to help them reintegrate.
    Now more than ever taking care of our soldiers must be our highest priority.  Making the benefits available to National Guard soldiers and their families through enhanced administration of TAP is a key part of our commitment to the welfare of returning soldiers and their families.
    Working with the members of this Committee, I believe the National Guard along with DOD, Department of Labor, and Department of Veterans' Affairs as well as state and local agencies can dramatically enhance soldier quality of life improvements for these important programs.
    Sir, transition assistance is a readiness issue. The way we take care of our soldiers and families today will be a direct reflection on how successful we are at recruiting the generations of soldiers and their families in the future.
    Thank you for this opportunity.  I look forward to your questions.
    [The statement of Ronald Young appears on p. 31]
 
    Mr. Boozman. Thank you very much, sir.
    Mr. Duehring?

STATEMENT OF CRAIG W. DUEHRING

    Mr. Duehring. Mr. Chairman, Madam Ranking Member, thank you for the opportunity to discuss the transition assistance program, TAP, and the disabled transition assistance program with you today.
    Congress and in particular this Subcommittee deserves sincere thanks for its continued support of our efforts to ease the transition of our separating and retiring servicemembers, as well as those being released from active duty from the Guard and Reserves.
    Let me begin by mentioning a couple of important points.  First, TAP is one program consisting of four basic components.  First, pre-separation counseling for which DOD has responsibility.  Second, DOL TAP employment workshops, for which DOL has responsibility.  Third, VA benefits briefings, for which VA has responsibility, and fourth, finally, disabled transition assistance program for which VA also has responsibility.
    Each agency is responsible for its component of the program with DOD serving as the coordinating agency for conducting the program.
    The second point, the Assistant Secretary of Defense for Reserve Affairs and I travel constantly throughout the country conducting town hall meetings with servicemembers, their families, and their employers.
    In the four years, he and I have yet to field the first question regarding TAP and DTAP.  Because the vast majority of the Guard and Reserve servicemembers return home to their former jobs, questions on the Uniformed Services Employment and Re-Employment Rights Act, USERRA, and the Servicemembers Civil Relief Act, SCRA, things like TRICARE and pay issues, are at the forefront of most discussions.
    However, this is not to say that we don't need to acknowledge the areas of concern the GAO report raises.
    In the body of the prepared statement for the record, I've enumerated the many accomplishments of TAP as well as the plans for the near term to increase the viability of the program.
    The GAO report, serving as the basis for this hearing, listed many of the changes underway and also pointed out areas that still require attention.
    From my review of the GAO report, I believe the real areas of concern for this Subcommittee center on employment assistance, VA benefits briefings, and DTAP for the Guard and Reserve.
    In response to one of the GAO recommendations, the Department is taking the lead in collaborating with our partners in DOL and VA to form a de-mobilization working group, the focus of which will be to assess the needs of the Guard and Reserve members during de-mobilization.
    The program will make recommendations to all departments concerned on how they can improve transition assistance during the de-mobilization process for members of the Guard and Reserve.
    The group will work under the umbrella of our existing TAP Steering Committee, a standing committee with representatives from DOD, the military services, the Reserve components, DOL, VA, and the Department of Homeland Security.
    The military services are already making every effort to provide pre-separation counseling to all returning units at the de-mobilization sites.
    The Department will take the necessary steps to standardize the time allotted to TAP counselors so they can provide quality pre-separation counseling briefings our Guard and Reserve personnel deserve.
    The Department remains steadfast in its commitment to offer separating servicemembers, retirees, Guard and Reserve personnel and their families a quality transition assistance program well into the future.
    In conclusion, Mr. Chairman, on behalf of our servicemembers and their families, thank you and the members of the Subcommittee for your support during these demanding times.
    Could I add one personal note?  Yesterday, my wife and I were in the audience when you participated in the 2005 Congressional Flag and Independence Day celebration salute to veterans in the military.  It was a marvelous program.  We enjoyed your role.  It occurred to us that none of those people were your constituents.  You were there just because you really care about veterans, and it came through.
    Thank you for the opportunity to appear before you today.
    [The statement of Craig Duehring appears on p. 39]
 
    Mr. Boozman. Thank you.  That really was a very nice tribute and a wonderful program.  I appreciate that.
    Ms. Caden?

STATEMENT OF JUDITH CADEN

    Ms. Caden. Thank you.  Mr. Chairman and members of the Subcommittee, I appreciate the opportunity to be here today to discuss the role of the Department of Veterans' Affairs in the transition assistance program and the disabled transition assistance program.
    My testimony will cover both of those programs generally and focus in particular on the issues and challenges of assuring that comprehensive VA benefits briefings are available to all members of the National Guard and Reserve who are called to active duty.
    I will also address the concerns and recommendations contained in the recent GAO report.
    As the Subcommittee is well aware, TAP and DTAP are designed to prepare retiring or separating military personnel for their return to civilian life.  DTAP is an integral component of the transition assistance for servicemembers who may be released because of disability.
    In fiscal year 2004, in total, including TAP and DTAP, VA representatives gave close to 8,000 briefings to active duty personnel in the U.S. and abroad, with nearly 277,000 in attendance.
    Four hours of the TAP workshops are devoted to discussing VA benefits.  While some of these benefits and services are available for a lifetime, others are not, and we feel a profound sense of obligation to make certain that active duty service personnel are aware of any time limitations on applying for or using VA benefits.
    Although TAP and DTAP are central to our efforts to inform the men and women on active duty about VA benefits and services available to them, they are not the only vehicles through which we disseminate this information.
    In concert with the military services' outreach programs, VA continues its benefits delivery at discharge, the BDD program, through which servicemembers can apply for service connected compensation within 180 days of release from active duty.
    Through that process, recently separated veterans can begin to accrue benefits toward their first disability check as soon as the month following their month of discharge.
    Currently, BDD is provided at 141 state side locations and at two locations overseas, in Germany and Korea. In fiscal year 2004, we took over 40,000 BDD claims and we are keeping that pace and probably more for fiscal year 2005.
    With the onset of Operation Enduring Freedom and Operation Iraqi Freedom, we have expanded our efforts further through the seamless transition program.
    VA representatives at key military treatment facilities such as here at the Walter Reed Army Medical Center, provide benefit information and coordinate the submission of claims to regional offices so they can be processed more expeditiously.
    With the activation and deployment of large numbers of Reserve and National Guard, VA outreach to these members has been greatly expanded.  National and local contacts have been made with Reserve and Guard officials to schedule briefings for those members being mobilized and de-mobilized.
    Last year, we conducted 1,400 pre and post-deployment briefings, which were attended by close to 90,000 Reserve and Guard members and we are expanding those numbers this fiscal year.
    We recently signed a memorandum of agreement with the National Guard Bureau, and under this agreement, the National Guard will establish opportunities for VA to provide information to Guard servicemembers who are coming back.
    VA also published a brochure, a summary of VA benefits for National Guard and Reserve personnel, which is widely distributed to Guard and Reserve units.
    Despite these efforts, we know that much more needs to be done, particularly because of changes when they are on active duty longer, it can change what they are eligible for.
    Let me now talk about the GAO report.  I have indicated in our comments included as Appendix 11 of the final report, that we fully concur with the recommendations for executive action, particularly in working with DOD and DOL, to explore logistical options for ensuring that members of the National Guard and Reserve have the knowledge to make the decisions they need to make, in particular, one is about whether or not to opt for the Montgomery G.I. Bill.
    Earlier this month, the TAP Steering Committee met to discuss ways to ensure members of the National Guard and Reserve are provided with such information in a more timely manner.
    As you just heard, a work group is being formed from DOD, VA, DOL, and the National Guard and Reserve components to look at the best way of providing information in a timely manner.
    The GAO report also recommended that in order to develop more accurate program statistics, we should keep track of servicemembers who attend TAP, DTAP, and other military briefings.
    We are putting into place a Web based reporting system that will respond to that recommendation, and we expect the system to be fully operational by October 1.
    Mr. Chairman, we are proud of our continuing role in TAP and DTAP, and seek to continually improve the quality and breath of our outreach efforts.
    Thank you for allowing me to appear before you today, and I look forward to responding to any questions.
    [The statement of Judith Caden appears on p. 59]

    Mr. Boozman. Thank you very much.  Mr. McWilliam?

STATEMENT OF JOHN McWILLIAM

    Mr. McWilliam. Chairman Boozman, Ranking Member Herseth, and distinguished members of the Subcommittee.
    Mr. Boozman. Can you turn your mike on?
    Mr. McWilliam. Thank you.
    It is my honor to appear before the Subcommittee today on behalf of Secretary Elaine Chao to update you on the efforts of the Department of Labor to provide transition assistance program services to servicemembers.
    The mission of our service is to provide transitioning servicemembers and veterans with the resources and services to succeed in the 21st Century workforce.  One of the ways that we do that is by providing employment workshops to transitioning active Guard and Reserve servicemembers.
    DOL works closely with our partner agencies, the Departments of Defense and Veterans' Affairs, in providing TAP.
    Our goal at the Department of Labor is to provide employment workshops at every location requested by the Armed Services.
    The DOL facilitated employment workshops are comprehensive two and one-half day sessions, where participants learn about job searches, career decision making, current occupational and labor market conditions, resume and cover letter preparation, and interviewing techniques. Participants are also provided an evaluation of their employability relative to the job market.
    To maintain a high quality of service delivery and ensure uniformity between locations, all workshops use a common work book and program of instruction.  All facilitators are trained and certified by the National Veterans' Training Institute.
    Mr. Chairman, we know that one of this Committee's key interests is whether our National Guard and Reserve units are receiving the best transition services.  These longer mobilization periods have resulted in these servicemembers now being eligible for TAP.
    Our state directors are working directly with National Guard and Reserve component commanders to make special arrangements following de-mobilization to present a modified TAP employment workshop to Guard and Reserve servicemembers.
    We have also contacted each state Adjutant General to offer outreach and assistance to returning members of the Guard and Reserve.
    Thus far, Labor has provided TAP employment workshops to over 1,200 National Guard and Reserve component servicemembers.  We will provide any unit a workshop upon request.
    Recognizing that there is data showing a risk of homelessness amongst veterans, in response to a congressional mandate to address the issue, Labor has developed a module on homelessness.  This module will be added to the employment workshops after final coordination with DOD and VA.
    To promote better ties between the employment workshop and one stop career centers, DOD and DOL are developing a supplemental guide to the employment workshop manual.  This guide will provide detailed information about the one stop career center services and how to access them.
    The Department of Labor fully supports the Government Accountability Office recommendation for a DOD led effort to determine what de-mobilizing Reserve and National Guard members need to make a smooth transition.
    We are working through the TAP Steering Committee to fulfill this recommendation.
    Mr. Chairman, I would like to mention another effort that supplements our employment workshops.  Secretary Chao initiated REALifelines, the recovery and employment assistance life lines.  This program provides a vital bridge in the transition of seriously wounded and injured servicemembers, including Guard and Reserve.
    We currently have representatives stationed at Walter Reed Army Medical Center and Bethesda National Naval Medical Center.
    We will continue to expand this program and it will soon be in place at additional military treatment facilities across the nation.
    We also have representatives at the recently established military severely injured joint operations support center, and we are working very closely with the Department of Defense on that effort.
    Mr. Chairman, this concludes my testimony.  I'm pleased to respond to any questions.
    [The statement of John McWilliam appears on p. 68]
 
    Mr. Boozman. Thank you very much.  I had the opportunity to go to Norfolk and visit the TAP center there. Again, I just want to publicly state that we found that to be a very, very good program.  I think I can speak for myself and the staff on both sides, again, that was a very, very good trip.
    The materials were good.  The quality of the instruction was very, very good.  I think we were very impressed.
    Is that representative system-wide?
    Again, I think they did a good job.  Tell me our challenges.  If that's a ten, is the rest of it a five, three?
    The other thing is certainly the fact that compared to some bases, so many people are transitioning out of there compared to maybe another area, are we concentrating on the bases that we need to where there is large turn over?
    Mr. McWilliam. Mr. Chairman, from our viewpoint, the employment workshops are standard between TAP sites. Whether it's a very large TAP program at Norfolk or very small TAP program at another location, they are very uniformly done.
    I think by having the large number at Norfolk, they are able perhaps sometimes to segregate the servicemembers who come through and have a senior TAP or senior people and mid grade people to address their issues more specifically.
    I think it is a pretty uniform program no matter where you go.
    Mr. Boozman. I agree with the General.  I think it is a readiness issue.  One of the things that we found in visiting with some of the people that were going through the program and had gone through it, in fact, we sat through part of the program where they were comparing the benefits outside, what you needed to expect when you start paying for your own health insurance, when you consider the fact that maybe you are making $40,000 there but you have $9,000 worth of health insurance and housing benefits and this and that.
    You could almost see a light going off in the room, that the folks were getting it there.
    One of the things that many people seemed to feel might be a good idea was making the TAP program mandatory in the sense that there is somewhat of a stigma sometimes if you sign up for the TAP program, people feel like you are getting out, when sometimes you just want more information.
    I think if you did it early in some cases, then the person might not get out, once they really understand what they are getting.
    The problem is if you get it late, it's kind of like sending out the invitations to your wedding, you are married, it's very difficult to back out at that time.
    What are your feelings about making it mandatory?
    Mr. Duehring. Mr. Chairman, I believe right now the active duty Marine Corps is the only organization that has a mandatory briefing.  I think we have sufficient authority already to do that if we wish.
    I think as part of our de-mobilization working group that we are forming, this is one of the issues we should look at, recognizing that there is a difference in requirements between the active duty and then the Guard and Reserve programs.
    As the GAO report pointed out and some of the other discussion that I've heard here, I think the requirements for the National Guard and Reserve, if I could dwell on them for a minute, would be different.
    On the one hand, they are going back to the communities they came from.  In many cases, a vast number of cases, they are going back to the jobs they left, and of course, that's what USERRA is all about.
    We recognize that there are a significant number of people who may have been unemployed when they came in.
    Another factor we talked about yesterday was when you get back into the home environment, and of course, this isn't going to take place until after you de-mob, the effect of the family.  The situation may have changed back there. You may have to move or change your goals in life or what have you.  Your whole family life could change.  That may necessitate some sort of re-entry back into the program.
    What we have done to that end is -- it is really not a bad idea.  I've got a couple of these cards here.  This is the Army and this is the Marine Corps' card that every individual gets.
    I'll read the Marine Corps' one.  Transition assistance management program.  We are here to support you even after you have separated.  There is contact information on both sides.
    If they see a need, they can get back into the system.  Then, of course, because of the timing, you may cross out of DOD responsibility into the Department of Labor, which in many cases, is better equipped at that point to assist them.
    I think this de-mobilization working group that we have already started forming and we have already been discussing at the worker level is going to take these suggestions, these questions that you have, the suggestions of the GAO report, and the other suggestions that I've heard from both ends of the table here, and tie these together to put together, as you have said, a much better program to meet the needs of basically two different groups of people.
    Mr. Boozman. I think they are very different in that respect and need to be tailored differently.
    Most of those people were mandatory regular service. They were in the regular service.
    One of the things on the mandatory, the young enlisted guys getting in, if you had a program where halfway through their stay, where they had to go and listen to it, then at that point, there are things they could be doing at that point, education wise and everything else, to start preparing them to get out.
    From a recruiting retention tool, I think some of them would realize that they had a pretty good deal.
    The career guys, as they are transitioning out, even halfway through their career or whatever, as you talk about these kind of things, again, I think it's a retention tool in the sense of getting them to look forward to when they do get out, what do they need to do from an education standpoint when they are in the service.
    Personally, I think it's something -- again, I don't get to make the rules.  I do think it is something that needs to be looked at, and there would be a lot of positive -- if a guy could look at it, again, without the stigma of that he gets the reputation that this guy is on the way out, nobody wants that.
    Can you respond to that?
    Mr. Duehring. Let me just jump on the active duty side for just a moment.  I recall when I separated, when I retired in 1996 and went through these briefings.  We had some time to prepare.  It was done before I left, whereas with the National Guard and Reserve, I think General Young will talk about that, there is a different motivation to get home. Everybody is going through it exactly the same time.  There is X number of days available.
    I was transitioning, but I knew what I was going to do on the outside.  I needed a certain amount of information, but perhaps not the full blown course.
    The services are probably in the best position to determine what their folks need.  Again, it's been addressed in the GAO report, and we have said publicly that we are going to look at this.
    I think at this point, we have sufficient authority to make whatever changes are necessary, if we feel that needs to be done.
    General?
    General Young. Mr. Chairman, I believe there are two very different programs here that we need, quite honestly, for the Reserve and the Guard.
    The Reserve program needs to be a program that is conducted at home station with the family and with the spouse in attendance.  The program at that point would be better received by the soldiers and the servicemembers that are returning from the theater.
    I just finished a tour as the Assistant Adjutant General for Army in Ohio for six years, since 1999.  I've mobilized over 7,000 soldiers and been to many of these de-mobilization sites.  I've met every soldier coming home and been with them as they received their initial briefings.
    They are not focused on these types of things at that point.  Their spouse, their family, is still back in Ohio.  They want to get home.  They want to get through the processing at the de-mob station as rapidly as possible.  Even though they may be required to sit in a briefing, it's not one on one.  It's not individual counseling.  It's a group type session.
    Their whole goal is to meet all the check marks in the blocks and leave the mob station to get home.
    The program I talked about earlier is a great program.  It's been conducted in New Hampshire.  They are now in about their third phase.  They came back in February and March.  It's actually a continuum of care.  They met them at the mob station, the leadership did.  They brought them home. They talked to them again.  They did follow up at the 30 day level, at 60 days back from mobilization.
    They are continuing a program even out to six months, just to ascertain where those servicemembers are and what type of assistance they need.
    I also think that there is an opportunity here while the servicemembers are deployed in theater and focused on their war time tasks to assist the families and talk to the families back in the family support groups and with the family assistance centers that we have established across the country.  We have 416 family assistance centers in the Guard across the country.
    By educating those individuals more thoroughly in all the benefits and entitlements, and attending the family support group meetings and making presentations to them about these benefits and entitlements, when the soldier gets home, that spouse or that family member is going to ensure at that point that they listen, pay attention, and enroll in the programs that are going to benefit that family for the rest of their life.
    Mr. Boozman. Thank you very much.  I agree.  We had 3,500 plus troops from Arkansas in Iraq.  I had the opportunity of seeing one of the groups return at Fort Hood.
    Yes, you had individuals that literally had children that they had never seen.  I think what you are saying is accurate.  It's a very difficult time.  Those families want to get reunited.  They have other things on their mind.
    Yet, on the other hand, as you said, from a readiness standpoint, if you can get this done at some point, then I think you prevent divorce, you prevent financial problems and many things that as a VA and a country come back and haunt us later.
    Ms. Herseth?
    Ms. Herseth. Thank you, Mr. Chairman.  Maybe just to pick up a little bit on this line of questioning.  I appreciate General Young sharing information about what's worked in New Hampshire with the reunion and re-entry program and the further description and response to some of the Chairman's questions about the phases and the importance of the continuum.
    We have talked in earlier hearings about the importance of the follow up, particularly with National Guard and Reservists.
    I would agree with the assessments that some of you have shared as well as the Chairman that these transition assistance programs, as we target them to two different sets of individuals that are serving in our force, the active duty, and of course now the heavier reliance on the National Guard and Reserve, as we have made this transformation, the stages of this transformation, certainly with recent deployments, that this goes to readiness and retention, but perhaps in different ways.
    Perhaps with some of the enlisted members in active duty, as the Chairman's suggestion, if they receive some of this information earlier, they can better compare opportunities within the military versus what might or might not be available in the private sector or how they are going to make that transition at a different time, versus the importance of the retention for National Guard and Reserve, as you recommended, being connected with the family support groups during the deployment, having that level of trust, the working relationships and the personal relationships with the spouses and other family members during the deployment and the follow up.
    I know someone from our second panel may question some of the timing of offering the transition assistance programs to the National Guard and Reserve for precisely the reasons we are describing, in terms of the motivation to get home, the separation from the family, what the expectations are.
    You said that the first stage up in New Hampshire is an additional five days at the de-mobilization site; is that correct?  Of active duty at the de-mob site?
    General Young. No, ma'am.  The five extra days that the Army allowed them to stay on duty was back in New Hampshire.  They had already left the de-mob station.  I think it was Fort Dix.
    Ms. Herseth. With family?
    General Young. Yes, ma'am.  They were welcomed home very informally by the leadership of the state, and the Commander had the option to give them a day off with their family the first day.  He could actually give them a pass.
    The second day, they were brought in and broken down into three distinct groups.  They all went to a different location.  One group went to the VA Hospital with their family, with their spouses, to hear the briefings again, and to take advantage.
    You know that some of the programs, ma'am, they are entitled to require they still be on an active duty status when they exercise that right or say they want the programs.
    This just gives another five days.  They are still in active duty.  There is plenty of time to do this.  They can do it in a relaxed atmosphere with their family, with local agencies that are aware of the employment opportunities, more specifically targeted to their area where they live.
    Ms. Herseth. I know General Michael Gorman, who is our state Adjutant General in South Dakota, has been very involved, working with his folks and our state agencies and with the Governor and his staff as our National Guard units have returned.
    To the degree that you are aware, do the other Adjutant Generals across the country have information about this particular program or other model programs that may be working in different parts of the country?
    General Young. Yes, ma'am, they do.  As a matter of fact, when we were in Omaha, Nebraska with all the Adjutant Generals, I spoke to the veterans' affairs partnership that we had just signed that day, and the chiefs of staff from each of the joint force headquarters was in Omaha with us.
    I made a presentation to them with the details of both the partnership and the New Hampshire program, holding it up as a model of something they might want to look at.
    As you know, each Adjutant General can work his own programs.  This is not the only program we have going on in the country, but it is a model program.
    The State of Washington has a great program also. New Hampshire is the one we are holding up as one that has proven results, and the feedback that we are getting from the soldiers and the families is very positive.
    Ms. Herseth. The focus on this program as the model program, on the follow up, the 30 days, 60 days, six months, I think with this group of individuals as part of our force, I think that's particularly significant that the follow up be incorporated into any program that's being utilized.
    General Young. Ma'am, I agree completely, especially the mental health aspects that the VA is working with us on in doing in this program.
    Ms. Herseth. Thank you.  A couple of other questions, and the Chairman has been kind enough to waive our five minutes here so we can probe a little bit further with you.
    Mr. Duehring, thank you for bringing the memorandum of understanding to the attention of us and to staff today.  I may be asking a couple of questions with the second panel, too.  We appreciate it.
    I know we asked you about this before, and we appreciate that the memorandum of understanding has been signed.
    Just a couple of questions, and we can follow up with you after today's hearing, too.
    In terms of the sharing of the information, of the health data sharing, the MOU appears to be a good step in the right direction.  Certainly, with consideration of various privacy issues, I would like to know about the sharing of the individual health data, and whether or not the VA -- does this simply codify what currently exists and the VA has to wait for the discharge and the official transfer or whether or not the VA has access to the individuals that may have suffered severe injuries and disabilities prior to the official discharge and transfer of the information over to the VA?
    Mr. Duehring. What I'd like to do is take that question for the record, if I could, and we will get you a good answer on that.
    [The information was provided and can be found on p. 146]

    Ms. Herseth. Okay.  Thank you.  I appreciate it.
    Ms. Herseth. Ms. Caden, given the number that's been provided to us here recently of those that have been injured seriously in Iraq and Afghanistan, exactly what services are provided within DTAP?
    For example, does it cover Federal employment preference, Americans With Disabilities Act protections, vocational rehab and employment programs, et cetera?
    Ms. Caden. DTAP is very complete and very over arching, and it will cover all of that.  It will talk about the USERRA rights, re-employment rights.
    If they are going to need to go back to the job they were in, if they had a job before that, what we can do to help them from there, and what other benefits are available.
    We have the booklet that I brought up with me here last time.  We have a script that's now used.  We do show a video on the voc rehab program.  They get a lot of information on that.
    Ms. Herseth. I would just conclude by raising the same question or perhaps recommendation for further review by all of you as it relates to the mandatory status of the transition assistance programs, especially if indeed there has been some stigma attached over time for those who are participating or not.
    Also, Mr. McWilliam, just from your agency's perspective, as we have perhaps explored a little bit more than with the active duty, any concerns or thoughts or complaints that you received as it relates to the assistance being provided for the transition assistance for the National Guard and Reserve, to focus particularly on this segment of our force?
    Mr. McWilliam. Yes, ma'am.  We have not received any complaints.  We are prepared to provide employment workshops.  I believe as we mentioned in the prepared testimony, we are conducting three pilots with three different states looking at models of how to present the employment workshops.
    One in Oregon was done very traditionally.  We trained facilitators from the returning Guard unit who assisted in getting the employment workshops.
    The one in Minnesota was done more on an individual basis, where the returning servicemembers identify any issues they are having with employment, and then the workshop is geared towards the specific issues they have raised.
    We are going to take all these ideas into the DOD led working group so we can come up with a best practice to present nationwide.
    Ms. Herseth. Thank you.  Thank you, Mr. Chairman.
    Mr. Boozman. Thank you.  Following up on Ms. Herseth's question about the New Hampshire experience, they had the five day period.
    Does the local General have the flexibility to determine that period of time?
    General Young. No, sir, he does not.  What happened in that case was the Adjutant General went to the First Army Commander, Lieutenant General Honore, and asked for that authority to keep them on five extra days when they got home, instead of putting them on their transition leave to use the leave they had earned during their deployment.
    He asked for a special privilege to do that.  First Army saw the benefits of the program and were agreeable to it.
    I am not aware of other states that have asked for that or have been turned down.  No one has told me they have had any problem with that.
    Mr. Boozman. He got a waiver to do that.
    General Young. Yes, sir.  It wasn't so much a waiver.  The First Army Commander has the authority to keep them on duty for whatever time after they get back that he would like to.  Five days was a suitable period to accomplish this.
    Mr. Boozman. Very good.  As we have talked among ourselves, again, you all are bringing out the difference in the Guard experience and the regular military, and in the Guard, you transition in as well as transition out.
    Many of these people are business owners. There is just a real struggle that goes on in getting ready to go.  Several of these people -- we have all heard stories of people losing their businesses.  It's a tremendous financial strain.
    The National Association of Small Business Development Centers have over 1,000 offices.  That is your resource.  Are we working with them?  What kind of resources are we using, or are we using resources?  Have we thought about the transitioning in?
    Again, I was very impressed with the transitioning out for regular forces.  Maybe we can go visit with the folks in New Hampshire about what they are doing in transitioning out with the Guard.
    What are we doing about them transitioning in, if anything?
    General Young. Mr. Chairman, I can speak to just a little bit of that, that I'm fully aware of.
    Each one of our soldiers as they prepare for deployment during the soldier readiness processing back at home station prior to leaving interface with our employer support in Guard and Reserve, a representative in each state. It is an initiative that General Blum put in place as soon as he was appointed to Chief, putting that person out there in each state to help with employment issues and to help employers with issues of a Guardsman.
    One of the programs that works through ESGR is a program called SCORE, Service Corps of Retired Executives. They offer services to small business owners and some of our members to take advantage of, to assist them with financial issues or how to run a business, how to keep it running while they are gone, those types of things.
    Both SCORE and the National Association of Small Business Development Centers are in tune with ESGR, and we have access to those programs through ESGR.
    Mr. Boozman. If a servicemember is deployed, say an individual is deployed and negative things do occur, does the person here, the wife or husband of somebody in a small business, is there somebody they can access and get some counseling?
    Could the dependent that is left get the same thing?
    General Young. Yes, sir.  They certainly can.  I know exactly what you're talking about, as far as some of our members that have lost some businesses.  It's a great hardship.  There's no doubt about it.  It's a great hardship.
    The soldiers and families that I've interfaced with understand the sacrifice and are willing to make the sacrifice, and many of them in some cases have actually volunteered for a second assignment and go and do it regardless of the impact on their business and on their family situation.
    Yes, sir.  The person left behind to try to keep the business running does have access to these same types of assistance.
    Mr. Boozman. Very good.  We have some other questions that we will submit.
    Thank you all very much.  We really appreciate you coming, appreciate your testimony.  Again, TAP in Norfolk was excellent.  If you can duplicate that every place, that is a huge success.  That and the materials that you put together to give those individuals.
    We would like to look a little bit more at the Reserve part of it and see what's going on there and see how it is differentiated.  Maybe we can visit with the New Hampshire unit to see how that experience has worked and kind of go from there.
    Thank you all very much.
    Our second panel includes Ms. Cynthia Bascetta, Director of GAO's Veterans' Health and Benefits Issues. Colonel Bob Norton, Co-Chairman of the Military Coalition's Veterans' Committee, and finally, Mr. Brian Lawrence, Assistant National Legislative Director of Disabled American Veterans.
    Ms. Bascetta, would you please get us started?

STATEMENTS OF CYNTHIA BASCETTA, DIRECTOR OF VET-
    ERANS' HEALTH AND BENEFITS ISSUES, U.S. GOVERN-
    MENT ACCOUNTABILITY OFFICE; ACCOMPANIED BY 
    ROBERT F. NORTON, RETIRED, CO-CHAIRMAN, VETERANS'
    COMMITTEE, THE MILITARY COALITION; AND BRIAN E.
    LAWRENCE, ASSISTANT NATIONAL LEGISLATIVE DIREC-
    TOR, DISABLED AMERICAN VETERANS

STATEMENT OF CYNTHIA BASCETTA
 
    Ms. Bascetta. Thank you, Mr. Chairman and Ranking Member Herseth.
    We appreciate the opportunity to be here today to testify on our recently issued report on TAP, which was mandated in the National Defense Authorization Act of 2005.
    Entitled Enhanced Services Could Improve Transition Assistance for Reserves and National Guard, the report focuses on actions the Departments of Defense, Labor, and VA are taking, and challenges they face in improving TAP.
    To do our work, we reviewed the legislative history of TAP, program materials, and participation statistics.  We conducted extensive interviews with officials from DOD, DOL, and VA.
    We also visited Fort Bragg, one of the heaviest volume de-mobilization locations, to observe TAP sessions firsthand and talk to participants, including Army Reserve and National Guard members.
    As you requested, my comments today highlight our concerns related to their transition assistance.
    Overall, we found variations in the delivery of TAP. The amount of personal attention, the length of components, and the instructional methods used all varied.
    For example, we found pre-separation counseling in one on one sessions of about an hour, group sessions at bases where many individuals were separating, and computer assisted interactive programs at banks of computers so that servicemembers could work at their own pace in other locations.
    At remote locations, TAP may be delivered by video or telephone, due to the lack of trained personnel on site.
    Participation also varied.  Not surprisingly, it was generally lower for the voluntary employment workshops, ranging from about 56 to 86 percent, and higher for mandatory pre-separation counseling.
    Notably, from fiscal year 2002 through 2004, National Guard and Reserve members attending pre-separation briefings increased more than ten fold, from 9,000 to 93,000 members. During the same time, about 229,000 Army servicemembers attended pre-separation counseling.
    Unfortunately, VA assumed that participation at workshops was a proxy for its benefit briefings and DTAP, so they didn't keep separate participation data.
    We recommended that they do so to develop accurate program statistics as well as to ensure adequate follow up, particularly for disabled servicemembers.
    Although several actions are underway or planned to improve TAP, we identified designing services that better meet the needs of Guard and Reserve members as a particularly important challenge.
    For example, typically, as you have heard, the de-mobilization process is completed in five days or less.  More importantly, as we have also discussed today, National Guard members want to get back to their families as quickly as possible.
    As a result, unless TAP is redesigned, they risk not receiving timely information on benefits to which they are entitled, especially certain education benefits and medical coverage that require servicemembers to apply while they are still on active duty.
    Their opportunity to participate in the two to two and a half day employment workshops is also severely curtailed by the rapid de-mobilization time frame.
    To deal with these logistical challenges, the Departments told us that they are considering the option of offering some TAP components after de-mobilization.  They could present their briefings during scheduled drill weekends, and DOL could conduct workshops as well after de-mobilization.
    They told us they were unsure about how many Reserve and National Guard members might be interested in this option, and they believe that this would also require additional resources and a directive that commanders allow sufficient time for transition assistance.
    One promising source of information on these issues is the three state pilot programs in which DOL is involved, to better understand how post-de-mobilization workshops might work.
    To ensure this option is fully explored, we recommended that DOD in conjunction with its VA and DOL partners, determine what National Guard and Reserve members need to make a smooth transition, and that they explore the logistical options for providing that assistance.
    Other positive steps they have taken include eliminating the one size fits all approach by updating counseling checklists, considering expansion of mandatory components of TAP to increase participation, and developing multiple outreach strategies to better disseminate information.
    Mr. Chairman, our war time reliance on the National Guard and Reserves has focused our attention on ways to help all returning servicemembers.  Surely, these men and women who put their lives on the line every day deserve the smoothest transition back to civilian life that we can offer.
    We encourage DOD, DOL and VA to continue to vigilantly pursue ways to improve TAP.
    That concludes my remarks, and I'd be happy to answer your questions.
    [The statement of Cynthia Bascetta appears on p. 75]
 
    Mr. Boozman. Thank you very much.  Colonel Norton?

STATEMENT OF ROBERT NORTON

    Colonel Norton. Thank you, Mr. Chairman and Ranking Member Herseth.
    I am honored to present testimony today on behalf of the 35 members of The Military Coalition, which collectively represents approximately 5.5 million members of the uniformed services community, active duty, National Guard and Reserve, family members, retirees, veterans, and survivors.
    Mr. Chairman, you asked for the Coalition's views on TAP and DTAP and specifically issues addressed in the GAO report.  I will focus my remarks on three issues and concerns from my prepared statement.
    First, TAP and DTAP funding is inadequate to meet the needs of all servicemembers who are separating from active duty, including members of the Guard and Reserve.
    The GAO report states that TAP funding requirements are based entirely on projected active duty separations.  The services have separated an average of 200,000 active duty troops per year, and TAP budgets were built on those projections alone.
    Since 9/11, almost 500,000 members of the Guard and Reserve have been called up.  Last year alone, 117,000 Reserve troops were de-mobilized, but no additional funds have been earmarked by the VA, DOD, or the Department of Labor for TAP or DTAP activities.
    Taking an average of about 100,000 Guard and Reserve separations per year, the TAP budget should be increased by about 50 percent over current spending levels.
    Second, The Military Coalition agrees with the GAO that TAP/DTAP should be adapted to meet the needs of Guard and Reserve troops separating from active duty.
    The last thing most citizen soldiers need is a mandatory week of TAP briefings after they have returned from deployment.  For one thing, as has been pointed out already, their spouses and families are not available in most cases to participate in TAP activities.  Active duty troops are assigned to installations.  Reserve troops are not under the installation commander's control, and they pass through the de-mobilization sites normally without their family members.
    Also, TAP information needs to be tailored to their specific needs.  The Coalition supports initiatives like the state based pilot employment workshops.
    We also believe that the veterans' benefits component of TAP needs to be expanded for Reserve troops and delivered back in the community wherever possible.
    Many Guard and Reserve troops would benefit by information on enrollment in VA health care, filing claims for disability, re-employment rights, economic and financial rights and protections under the Servicemembers Civil Relief Act, Small Business Administration disaster type loans, G.I. Bill education benefits, and other valuable VA program information.
    Thirdly, we agree with the GAO that there appears to be some progress in developing TAP and DTAP checklists that address the unique needs of the Guard and Reserve servicemembers and their families.
    My prepared statement offers specific observations for further improving those checklists.
    The Coalition wants to emphasize, however, that more needs to be done to advise and assist returning Guard and Reserve veterans and their families, especially those with physical disabilities and mental health disabilities.
    We recommend that the Congress impose a reporting requirement on the Departments of DOD, VA and Labor, to report back to the Committee and the Subcommittee on measures taken to improve the coordinated delivery of TAP services.
    It was mentioned earlier, Mr. Chairman, that a de-mobilization work group has been developed, and we applaud that, but we think there ought to be the greatest amount of transparency possible in terms of the work and the recommendations and the outcomes of the de-mobilization work group, so that all of us in the stakeholder community can see and assess what progress has been made in terms of improving TAP and DTAP services for the Guard and Reserve especially, but for all the separating troops as well.
    A number of Coalition organizations, including my own, the Military Officers Association, are actively engaged in providing outreach and support assistance to disabled veterans in the community.  The DAV, the VFW, many VSOs also have robust programs.
    We are proud of that work but recognize its inherent limitations.  Congress needs to provide additional funding for Government sponsored services provided by the VA and the Department of Labor in the community, not only for the physically disabled but for those wounded in mind and heart as a result of their service.
    Finally, Mr. Chairman, I would just also mention that from my prepared statement, The Military Coalition strongly supports accelerated development of what we call seamless transition initiatives.
    We have testified on this before, not only before this Committee, but also before the Armed Services Committee.
    We recommend the Manhattan like project to accelerate the development of an electronic DD-214 separation document, an one stop separation physical, as has been pointed out, BDD benefits delivery at discharge has been expanded, and we recommend further expansion of that program, and the development of electronic medical records, which was mentioned earlier, so that information can be quickly and seamlessly reported from the DOD over into VA.
    Mr. Chairman, this concludes my statement.  I thank you again for the opportunity on behalf of The Military Coalition to testify before your Subcommittee today.
    Thank you.
    [The statement of Robert Norton appears on p. 90]
 
    Mr. Boozman. Thank you, Colonel.  Mr. Lawrence?

STATEMENT OF BRIAN LAWRENCE

    Mr. Lawrence. Chairman Boozman, Ranking Member Herseth, on behalf of the Disabled American Veterans, thank you for the opportunity to present our views on the transition assistance program and the disabled transition assistance program.
    I'm grateful for the opportunity to supplement my written statement, because in further discussions with some of our transition assistance officers, some simple suggestions were made that could increase the efficiency of the process.
    The first is that DD-214, the discharge documents, should automatically be provided to the VA by DOD, as Colonel Norton said, preferably by electronic transfer.
    Currently, an individual must wait to acquire his or her DD-214 from the Department of Defense after discharge and then deliver it to the VA.
    Since almost every transition member is also relocating to another geographical area, it would be helpful if the transfer was automatic.
    In addition to alleviating servicemembers' frustration, it would help the VA maximize its efficiency.
    Secondly, the pre and post-military deployment health questionnaires should also be included in service medical records, which are the primary evidence considered when VA determines entitlement to service connection.
    I was surprised to learn that in most cases, the deployment health questionnaires are maintained by DOD for its exclusive purposes.  DOD understandably requires such information for health studies, but that requirement should not preclude VA's access to the questionnaires because they hold important information regarding benefits entitlement.
    Copies of deployment health surveys should automatically be included in service medical records.
    Lastly, in talking with our transition folks, the most emphasized suggestion I received was that the benefits delivery at discharge or BDD sites, should be expanded to include all discharge facilities.
    BDD is a cooperative effort between DOD and VA to provide a physical examination that satisfies both agencies' purposes.  Previous procedures required two separate examinations conducted several months apart.  The first was a DOD exam, followed by a secondary VA exam for compensation claims.
    BDD improves service for separating servicemembers by eliminating lengthy delays in claims decisions, avoids redundant and unnecessary exams, and improves the quality of the exams.
    BDD takes the pressure off overly burdened VA regional offices that already face backlog problems, and veterans receive disability ratings sooner after discharge, and the accuracy and satisfaction with those ratings is generally of higher quality or more readily agreed with.
    The DAV strongly recommends that BDD be made available to every person retiring or separating from active duty.
    That concludes my statement.  Thank you again for the opportunity to testify.
    [The statement of Brian Lawrence appears on p. 99]
 
    Mr. Boozman. Thank you, Mr. Lawrence.
    You mentioned, Ms. Bascetta, about there being varied methods of delivery throughout the system.  Was that just a comment or is that a criticism?  There are different ways to get things done, depending on if you have a group where you have 10,000 separations versus a much smaller amount.
    Ms. Bascetta. Right.  That's correct.  We believe that the flexibility that we saw is not a bad thing.  They are dealing with different volumes of people on different days and a different mix of separating servicemembers.
    It's not necessarily indicative of a problem that there's variation, as long as the content that's delivered is the same, and as long as there is adequate attention paid to the most important pieces of information that the servicemembers need, for example, those that are time sensitive, in that they need to apply for them, the education benefits and TRICARE, while they are still on active duty.
    Mr. Boozman. One of the themes as we visited with individuals that were taking the course and others that had taken it, whether we visited individuals or groups, was that many of them said if they had just known they were entitled to all this stuff, that it would have made a difference while they were in the service, that the only time they had heard of it is when they were recruited.  As a young recruit or whatever, you just didn't have the understanding of what went on.
    Ms. Bascetta. If I might add, at Fort Bragg, we were there in February.  I'm glad to hear that the Norfolk experience was a very positive one for you.
    We were impressed also at Fort Bragg, but we noticed also that the amount of information was simply overwhelming. For that reason, there definitely needs to be follow up.
    We understand the Departments are working very hard to try to get information in ways that's more accessible to the servicemembers, not paper like this, but laminated cards that they can put in their pockets and they won't lose, 800 numbers, things like that that can improve their ability to reach back out if they have forgotten something.
    In some of the sessions that we were at, the talking was pretty rapid.  Some of the critical information was on a table.  If you came in one door, you might not necessarily pick it up.
    Those are the kinds of issues that we are concerned about.
    Mr. Boozman. I think that goes to the thought now that there might be some sort of a tendency to go to a two day program versus a four day.  If we are having problems with the extended period, certainly a two day program would only heighten that greatly.  I agree with you totally.
    Again, not knowing the benefits, do you have any ideas about mandatory as part of as they go through their career, periodically having to take some sort of thing like this?
    Again, so that halfway through their career, they could start positioning themselves, education and every other way, as they get out, or maybe they realize as they do these things, they are better off staying in for another tour?
    Ms. Bascetta. We didn't ask that question for this report.  We testified in 2002 on this issue, and that came up. In fact, the way it came up, if I recall, is some of the commanders who were reluctant to give the time to their servicemembers for the benefit became believers, if you will, when their servicemembers came back and said that they didn't want to leave the military because they actually felt their options in the military were better than outside.
    The other comment I would make with regard to making TAP mandatory is we definitely think that the VA briefings should be mandatory.  There is too much important information there that is now tacked onto the end of an employment workshop, which some servicemembers may not go to.  This important information will be missed.
    Of course, they should be getting the TRICARE notification at the pre-separation counseling, which is already mandatory.
    With regard to the employment workshops, I don't think we would recommend they be mandated because there probably are a group of people -- I don't know how large that group is -- who don't need that workshop, but if a servicemember elects to attend the workshop, then DoD should definitely be considering mandatory release, so that servicemembers have time to attend.
    Mr. Boozman. Thank you.  Colonel Norton and Mr. Lawrence, especially you, Colonel Norton, you alluded to the fact that the Guard units coming back didn't want to be held an extra five days or whatever.
    You also alluded to the fact there is so much information that they need, including their health, understanding they need to be reporting their health care, their VA benefits.  Again, four days worth of stuff goes on and on.
    What is your recommendation?  I understand that totally.  Like I say, I was at a ceremony where people are looking for children they had never seen.  This separation, boots on the ground for a year, it's a tough deal.
    What is the answer?  How do you get that information conveyed to them and their families without doing something along that line?
    Colonel Norton. It's a great question, Mr. Chairman.  I don't think it's so much a question of mandatory versus optional as what is the optimal moment, I'll call it the teachable moment, if you will, where deactivating members of the Reserve and Guard are ready to understand and receive that information.
    As General Young and others have pointed out earlier, back in home station is a much more conducive learning environment to begin to assimilate this mountain of information.
    In addition, because the family members are back home, often decisions about health care, decisions about how to restore and re-balance family finances, re-employment issues, Servicemembers Civil Relief Act protections, all those kinds of things automatically in a sense kick in when you are returned to the community.
    The idea of having follow on information briefings by the VA, for example, in the community readiness center, the family readiness work groups, makes a lot of sense to us.
    I would add as well that we applaud the idea of this MOU between the National Guard and the VA.
    However, as with the joint services disabled support center, which was recently stood up by the Department of Defense to basically oversee policy and coordinate the transition of disabled service men and women, I think more needs to be done by the Defense Department as sort of the lead dog, the lead agent in this, to coordinate overall the delivery of this information and service to all of the Reserve components, not just the National Guard.
    At the end of the day, there are large numbers of Army Reserve, Marine Corps Reserve, and other Federal Reserve troops that have been called up.
    If the services that are being set up between the Guard and the VA are essentially for them alone, it's going to be dysfunctional for the entire team.
    That's one of the reasons why we would like to see a little more transparency in the planning and the coordination process at the DOD level in terms of moving the whole team forward on this issue of delivering services in the local community.
    Mr. Boozman. I agree.  Sometimes I misstate in a sense.  I have a tendency to lump the Guard, meaning the Reserve, components together in a sense that they do have special needs.
    GAO, you all basically said, if I understand, this should be done during the drill period?
    Ms. Bascetta. We thought that was definitely an option worth considering; yes.
    Mr. Boozman. That's really what you are saying, Colonel Norton.
    Colonel Norton. Yes.  Some mechanism to deliver it in the home station.  Family support groups, work groups, is probably as good a place as any.  As General Young indicated, there are over 400 of these.  That probably could serve the entire Reserve and National Guard community, again, if the coordination was properly structured.
    Ms. Bascetta. I think Colonel Norton is exactly right.  I would just add that the same requirement about the commanders needing to allow time would be very important to ensure that anybody that opted for that workshop would be able to actually attend.
    Mr. Boozman. Ms. Herseth?
    Ms. Herseth. Thank you.  You mentioned, Ms. Bascetta, that you saw down at Fort Bragg an increase from 9,000 to 90,000 participants?
    Ms. Bascetta. That's total.
    Ms. Herseth. Colonel Norton, you had mentioned a very important component here is the funding associated with providing these services at an adequate level.  Of course, redesigning the program to meet the needs of National Guard, Reserve, active duty.
    We take that to heart, given some of what we are facing on the health care front, that it's an important part that we are using not just active duty separation projections but what's happening with the National Guard and Reserve in the modeling to project what the needs are going to be as we look to changes to make these transition assistance programs as effective as possible.
    A couple of thoughts, I won't pose any questions other than to ask Mr. Lawrence, you provided some information on the memorandum of understanding and some concerns, despite the fact that it has been signed between DOD and the VA, we have to address some of the ongoing concerns that perhaps GAO has as well.
    If you could take the same question for the record that I posed to Mr. Duehring to address, whether it is some of the electronic transfer of information, individual or access by the VA, to individual health data prior to discharge, prior to transfer.
    If you could submit that to us and our staff as well to share your assessment and evaluation and concerns you have about that MOU in addition to what you have already testified to, Mr. Lawrence.
    The last thing I would offer, and I know Mr. McWilliam is still here, going on some of what the Chairman shared in his experience with some of the folks in Arkansas and what I have seen in South Dakota, especially with the National Guard, and what I would propose is just a factor to keep in mind when you are looking at redesigning the transition assistance programs and the importance of the follow up for the National Guard and Reserve, I think it is a very good idea to have the spouses and family members during the deployments involved in understanding what the benefits are.
    We also are very well aware of the fact that that transition back within the family life poses some challenges as well.  We know these units are very cohesive during these deployments.
    Just as an idea based on some of the conversations I have had, including with former students of mine from a couple of years ago that have served in these deployments,  try to identify within the National Guard units a couple -- a handful of people that can become the in house experts, the members themselves that have returned, that are on the phone with their fellow service men and women from that Guard unit, that are meeting up with them on a more informal casual basis, that can share that information outside of a formal type official setting during the drills, 30 days after, 60 days after.
    All of that is important.  I do think we should try to identify some folks within the unit itself that become the in house experts for the units, not just the commanders, not just the leadership.  Some folks that have identified an interest in or are already taking advantage of some of those benefits that can share that information with people they consider their second family after these deployments.
    Thank you, Mr. Chairman.
    Mr. Boozman. Thank you, Ms. Herseth.
    Again, I want to thank the panel.  I guess I kind of equate this -- I'm an optometrist, an eye doctor.  I equate a lot of things to health care.
    I think if you scored it somehow dynamically, it is kind of like if you don't take your high blood pressure medicine or if you are a diabetic and you don't take your medicine for that, everything goes along, and then in the case of the high blood pressure, you have a stroke, and then that stroke cost a lot more money to deal with than taking a very inexpensive pill.
    I think the problems that are encountered if this isn't done right, either in TAP or in the case of the individuals that all of a sudden are thrust into the military from civilian life without getting their things in order, truly, a lot of the problems that we deal with in the VA later on are as a result of failure caused from this.
    I personally think it's money well spent.  As Ms. Herseth alluded to and Colonel Norton brought it up, we need to look and make sure we are adequately funding the programs, certainly the demands and needs now are different than they were before 9/11, and again, go from there.
    Once again, thank you very, very much for your testimony.  Do you have anything else?
    Ms. Herseth. No.  Thank you.
    Mr. Boozman. The meeting is adjourned.  Thank you.

    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]
   
<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>9
</pre></body></html>
